 SUPERFUND ACTIVITIES IN THE
  ENVIRONMENT AND NATURAL
      RESOURCES DIVISION
FOR FISCAL YEARS 2000 AND 2001

       U.S. Department Of Justice
     Office Of The Inspector General
              Audit Division

           AUDIT REPORT 03-34
            September 2003
            SUPERFUND ACTIVITIES IN THE
    ENVIRONMENT AND NATURAL RESOURCES DIVISION
           FOR FISCAL YEARS 2000 AND 2001

                             EXECUTIVE SUMMARY
      On December 11, 1980, the Comprehensive Environmental Response,
Compensation and Liability Act of 1980 (known as CERCLA or Superfund)
was signed into law. CERCLA provides for liability, compensation, cleanup,
and emergency response for hazardous substances released into the
environment and uncontrolled and abandoned hazardous waste sites.
Executive Order 12580, issued January 23, 1987, gives the Attorney General
responsibility for the conduct and control of all CERCLA litigation, which is
conducted by the Environment and Natural Resources Division (ENRD). In
accordance with the legislation, the Environmental Protection Agency (EPA)
issues interagency agreements to the ENRD to reimburse it for costs
incurred in performing such litigation.

       In Fiscal Year (FY) 1987, under the statutory authority of
31 U.S.C. §1535, the EPA began transferring appropriated funds to the
Department of Justice through interagency agreements. These agreements
authorized the ENRD to be reimbursed for costs incurred in performing
Superfund activities. The EPA authorized the ENRD reimbursements of
$28.6 million for FY 2000 and $28.4 million for FY 2001 in accordance with
EPA Interagency Agreements DW15937968-01-5 and DW15937968-01-7,
respectively. These agreements also require the ENRD to maintain a system
that documents the cost of the litigation. To this end the ENRD uses a cost
distribution process designed and maintained by a private contractor.

      The system was designed to process financial data from Expenditure
and Allotment (E&A) Reports into: (1) Superfund direct costs by specific
case, broken down between direct labor costs and all other direct costs;
(2) non-Superfund direct costs; and (3) allocable indirect costs.1 The
system serves as the basis to distribute labor costs and indirect costs to
cases.

      We designed the audit to compare reported costs on the contractor
developed Accounting Schedules and Summaries for FY 2000 and FY 2001 to
those recorded on Department of Justice accounting records, and to review

       1
           Other direct costs charged to individual cases include: special masters, expert
witnesses, interest penalties, travel, filing fees, transcription (court and deposition),
litigation support, research services, graphics, and noncapital equipment.
the cost distribution system used by the ENRD to allocate incurred costs to
Superfund and non-Superfund cases. To accomplish this we performed the
following steps:

   •   Compared total costs recorded as paid on the E&A Reports to the
       amounts reported as Total Amounts Paid on the year end Accounting
       Schedules and Summaries, and traced such costs to the reported cost
       distribution to Superfund cases.

   •   Reviewed the ENRD’s methodology for identifying Superfund cases on
       its Superfund case list by comparing a select number of cases against
       the ENRD case assignment criteria.

   •   Reviewed direct labor costs and indirect costs distributed to Superfund
       against the contractor-developed methodology.

   •   Compared Other Direct Costs (ODC) to source documents to validate
       their allocability.

       Based on the results of the audit, in our judgment the ENRD provided
an equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FY 2000 and FY 2001. We made one
recommendation that the ENRD implement a procedure to ensure that ENRD
officials responsible for authorizing official travel for staff document approval
of such travel in advance of such travel being initiated.

      The details of our review are contained in the Audit Results section of
the report. Additional information about our audit objectives and scope is
contained in Appendix I.
                               TABLE OF CONTENTS
                                                                                           Page

INTRODUCTION .................................................................................. 1
AUDIT RESULTS.................................................................................. 2
  SUPERFUND COSTS FOR FY 2000 AND 2001 ................................................ 2
  RECOMMENDATION ............................................................................. 10
APPENDIX I – OBJECTIVES AND SCOPE................................................ 11
APPENDIX II – CASES IN SAMPLE REVIEW............................................ 12
APPENDIX III – FY 2000 ACCOUNTING SCHEDULES & SUMMARIES .......... 13
APPENDIX IV – FY 2001 ACCOUNTING SCHEDULES & SUMMARIES........... 21
APPENDIX V – ENRD RESPONSE TO THE DRAFT REPORT .......................... 29
APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
              CLOSE REPORT ........................................................... 31
                                INTRODUCTION
       The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund) provides for liability,
compensation, cleanup, and emergency response for: (1) hazardous
substances released into the environment, and (2) uncontrolled and
abandoned hazardous waste sites. 2 Executive Order 12580, issued
January 23, 1987, provides that the Attorney General is responsible for the
conduct and control of all litigation arising under Superfund. The Order also
requires the Administrator of the Environmental Protection Agency (EPA) to
transfer from the Hazardous Substance Response Trust Fund resources to
support Superfund activities.

       In Fiscal Year (FY) 1987, under the statutory authority of
31 U.S.C. §1535, the EPA began transferring appropriated funds to the
Department of Justice through interagency agreements. These agreements
authorized the Environment and Natural Resources Division (ENRD) to be
reimbursed for costs incurred in performing Superfund activities. The EPA
authorized the ENRD reimbursements of $28.6 million for FY 2000 and $28.4
million for FY 2001 in accordance with EPA Interagency Agreements
DW15937968-01-5 and DW15937968-01-7, respectively.

       The initial agreements in FY 1987 also required accounting and
reporting of recoverable case-related costs. Accordingly, at that time the
ENRD instituted a system designed by Rubino & McGeehin, Chartered,
Certified Public Accountants and Consultants (contractor). The system was
designed to process financial data from Expenditure and Allotment (E&A)
Reports into: (1) Superfund direct costs by specific case, broken down
between direct labor costs and all other direct costs; (2) non-Superfund
direct costs; and (3) allocable indirect costs.3 We reviewed this process and
a sample of transactions of other direct costs to assess the allocability of
such costs to Superfund and non-Superfund cases during FY 2000 and
FY 2001.




       2
           Amended by the Superfund Amendments and Reauthorization Act of 1986.
       3
           Other direct costs charged to individual cases include: special masters, expert
witnesses, interest penalties, travel, filing fees, transcription (court and deposition),
litigation support, research services, graphics, and noncapital equipment.
                            AUDIT RESULTS

      Superfund Costs For FY 2000 And 2001

      We reviewed financial activities and procedures used by the
      ENRD to document, compile, and allocate direct and indirect
      costs charged to Superfund cases. Based on the results of the
      audit, in our judgment the ENRD provided an equitable
      distribution of total labor costs, other direct costs, and indirect
      costs to Superfund cases during FY 2000 and FY 2001. The
      ENRD does need to ensure that all travelers receive approved
      authorizations for official travel in advance of the beginning of
      such travel, and we made one recommendation to address this
      issue.

      We designed the audit to compare reported costs on the contractor
developed Accounting Schedules and Summaries for FY 2000 and FY 2001
(Appendix III and Appendix IV) to that recorded on Department of Justice
accounting records, and to review the cost distribution system used by the
ENRD to allocate incurred costs to Superfund and non-Superfund cases. To
accomplish this we performed the following steps:

  •   Compared total costs recorded as paid on the E&A Reports to the
      amounts reported as Total Amounts Paid on the year end Accounting
      Schedules and Summaries, and traced such costs to the reported cost
      distribution to Superfund cases.

  •   Reviewed the ENRD’s methodology for identifying Superfund cases on
      its Superfund case list by comparing a select number of cases against
      the ENRD case assignment criteria.

  •   Reviewed direct labor costs and indirect costs distributed to Superfund
      against the contractor-developed methodology.

  •   Compared Other Direct Costs to source documents to validate their
      allocability.

      We examined these items to ensure that costs distributed to
      Superfund and non-Superfund cases were based on the total of actual
      costs for each fiscal year, that the distribution methodology used and
      accepted in prior years remained viable, and that selected costs were
      supported by documentation that evidenced their allocability to
      Superfund and non-Superfund cases. This would permit us to



                                        2
     determine if the ENRD provided an equitable distribution of total labor,
     other direct costs, and indirect costs to Superfund cases during FY
     2000 and FY 2001. Following are the results of our review.

Reconciliation of Accounting Schedules and Summaries to E&A
Reports

    The E&A Reports for FY 2000 and FY 2001 provided the following
amounts paid for total ENRD expenses:

                   ENRD Payments By Fiscal Year
                 Description           2000                 2001
       Salaries                     $52,483,103          $51,810,628
       Benefits                      11,419,703           11,753,133
       Travel                         2,521,722            2,908,613
       Freight                          313,430              528,720
       Rent                          10,722,946           11,098,410
       Printing                         354,150              212,435
       Services                      12,969,821           11,816,044
       Supplies                         879,485              869,815
       Equipment                        750,058              896,014
       Total                        $92,414,418          $91,893,812
     Source: E&A Reports for Fiscal Years Ending 09/30/00 and 09/30/01

      We compared these E&A amounts to those in Schedule 6,
Reconciliation of Total ENRD Expenses, of the Accounting Schedules and
Summaries for each fiscal year to ensure that the distribution of costs to
Superfund and non-Superfund cases was limited to total costs incurred. We
found that the Schedule 6 amounts reconciled to the E&A Reports. We then
reconciled these amounts to the distributions to Superfund on Schedule 5,
Superfund Costs by Object Classification, and Schedule 2, Superfund
Obligation and Payment Activity During 2000 (and 2001) By Fiscal Year of
Obligation. We also found that the amounts on these schedules reconciled
through Schedule 6 to the E&A Reports.

     Our review then focused on determining that the summary amounts
on Schedule 2 represented an equitable distribution of costs to Superfund.
The Superfund costs in Schedule 2 of the Accounting Schedules and
Summaries for FY 2000 and FY 2001 reported the following:




                                     3
                Superfund Distributed Costs By Fiscal Year
          Cost Categories               2000               2001
 Labor                                  $ 7,399,102        $ 7,190,961
 Other Direct Costs                       4,247,556          2,948,769
 Indirect Costs                          14,191,618         13,638,641
 Superfund Program Expenses                 511,585            332,605
 Unliquidated Obligations                 3,333,079          5,896,977
 Totals                                          $29,682,940              $30,007,953
Source: Schedule 2 of the Contractor’s Accounting Schedules and Summaries

      Our starting point for reviewing the distribution system was to be able
to identify and reconcile the ENRD cases as Superfund or non-Superfund.
This enabled us to extract only Superfund data from the ENRD data to
compare to the Accounting Schedules and Summaries.

Superfund Case Reconciliation

      The ENRD litigates non-Superfund and Superfund cases, which have
unique identifying numbers in order to control the processing of cases. The
ENRD maintains an annual cumulative database of all Superfund cases; this
database identified 4,996 cases in FY 2000 and 5,285 in FY 2001. We
reviewed the database to establish the method used by the ENRD to identify
Superfund cases, and if the cases were identified in accordance with
established ENRD criteria for case identification.

       We randomly selected 30 cases from the FY 2001 cumulative
Superfund universe database (see Appendix II) to test if the ENRD sections
adhered to the procedures and identified the cases properly (we used the
FY 2001 Superfund universe database to select our sample because the
database is cumulative and includes FY 2000 cases).4 We reviewed the
cases against the ENRD case data, including case intake worksheets, case
opening forms, case transmittals, and emails. The ENRD used the case data
entering forms to record summary information from the case. The
information referred to laws, regulations, or other language that established
the cases as either Superfund or non-Superfund for tracking purposes. We
found that 29 cases reviewed contained proper referencing documentation in
its case file. The ENRD could not locate one case file we selected for review
that the Appellate Section had sent to archives.



      4
          The ENRD Sections included were the Environmental Crimes, Appellate, Land
Acquisition, General Litigation, Environmental Enforcement, and Environmental Defense.



                                            4
Superfund Cost Distribution

       Since we found that the ENRD’s case identification method adequately
identified Superfund cases, we next reviewed: (1) the system used by the
contractor to distribute direct labor and indirect costs, and (2) other direct
costs charged to Superfund. Following are the results of our review of the
cost categories.

Labor

      The contractor continued using the labor distribution system from prior
years, which we reviewed and accepted in prior audits. The ENRD provided
the contractor with electronic files that included employee time reporting
information and biweekly salary information downloaded from the National
Finance Center, which processes biweekly salaries for the ENRD employees.
The contractor uses the following formula to distribute labor costs monthly.

Salary Starting Point:     Employee Biweekly Salary5
Divided by:                Employee Reported Biweekly Work Hours
Equals:                    Biweekly Hourly Rate
Multiplied by:             Employee Reported Monthly Superfund and
                           Non-Superfund Case Hours
Results In:                Distributed Individual Monthly Labor Case Cost

      We selected one month in each fiscal year (December 1999 and
December 2000) to review the effective hourly rates by employee calculated
by the contractor. We found no reportable differences.

        For purposes of our review, we:

   •    Matched the total Superfund and non-Superfund labor costs to that
        reported on the E&A reports for FY 2000 and FY 2001.

   •    Acquired and reviewed electronic labor files and selected salary files
        that the ENRD provided to the contractor and the resultant electronic
        files prepared by the contractor to summarize costs by employee and
        case.




        5
         In FY 1998 and FY 1999, the contractor converted salary data on a monthly basis.
Now, the contractor converts salary data on a biweekly basis to increase accuracy of
reporting labor costs.



                                            5
   •   Extracted and reconciled Superfund case costs from the contractor
       files by using the validated case numbers discussed earlier in this
       report.

       Since the E&A and Accounting Schedules and Summaries amounts
matched, this assured us that the distribution method, which parallels a
management information system and not an accounting system, was limited
to allocating just the total of costs paid for each fiscal year. We traced the
Direct Labor for Superfund cases ($7,399,102 in FY 2000, and $7,190,961 in
FY 2001) from the E&A Reports through the schedules of the Accounting
Schedules and Summaries. We found that the contractor’s distribution was
limited to the total costs in the E&A reports.

      In the next phase of the audit, we performed selected database
matches to compare the employee time and case data against the
contractor’s schedules used to prepare the Accounting Schedules and
Summaries, and to identify Superfund case data. As previously mentioned,
we were able to rely on the Superfund case database to match the ENRD
case list to the contractor’s completed schedules. We then compared the
Superfund billed time data, which included 1,267 transactions in FY 2000
and 1,200 transactions in FY 2001, against the electronic files prepared by
the contractor. The contractor’s files included 5,200 records in FY 2000 and
5,486 records in FY 2001. We found no reportable differences in the total
number of Superfund cases with direct labor costs for each fiscal year.

      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of the labor
costs to Superfund cases. Therefore, in our judgment this process provided
for an equitable distribution of direct labor costs to the ENRD cases.

Indirect Costs

       In addition to direct costs incurred against specific cases, the ENRD
also incurs indirect costs that it allocates to all cases. These include
primarily salaries, benefits, travel, freight, rent, printing, services, supplies,
and equipment. The contractor distributes indirect costs to individual cases
using an indirect cost rate that is calculated on a fiscal year basis.

      According to its indirect cost methodology, the contractor uses actual
payments by the ENRD as the basis for the indirect cost base and expense
pool for calculation of the indirect cost rate. The base is comprised of total
direct labor. The contractor extracts indirect costs from the E&A report and
removes all direct costs incurred to arrive at net indirect costs. The
contractor divides this amount by total direct labor for the period to calculate


                                         6
the ENRD indirect cost percentage. Additionally, the contractor identifies
indirect costs that support only Superfund activities and uses these costs to
develop a separate Superfund specific indirect rate, which is calculated by
dividing these costs by Superfund direct labor. The rates for FY 2000 and
FY 2001 follow.

                  Indirect Cost Rates By Fiscal Year
                     Category                2000           2001

        ENRD Indirect                            186%           186%
        Superfund Specific                          30%          24%
        Combined Rate                            216%           210%
       Source: Schedule 4 of Accounting Schedules and Summaries.
               Percentages rounded to nearest whole percent.

      We reconciled the total E&A amounts to the Accounting Schedules and
Summaries, Schedule 4 to ensure that the contractor used only paid costs to
accumulate the expense pool. Costs used by the contractor were extracted
properly from the E&As. The contractor then calculated the rates accurately
by dividing the indirect expenses by applicable direct labor costs.

Other Direct Costs

       The amounts of other direct costs incurred by the ENRD and
distributed to Superfund during FY 2000 and FY 2001 are provided in the
following table.




                                      7
                    Superfund Other Direct Costs By Fiscal Year
      Subobject Code and Description            2000           2001
 210-Travel Guards                                           $      253
1153-Special Masters Compensation             $ (10,078)          9,030
1157-Expert Witness Fees                       2,482,662      1,745,682
2101-Travel Management Center Rebates                               392
2100-Travel and Transportation                   695,155        877,383
2411-Printing and Reproduction,                  160,191         48,113
     Court Instruments
2499-Printing and Reproduction, All Other         46,957         40,700
2501-Filing and Recording Fees                                       13
2508-Reporting and Transcripts- Deposition       338,397        171,283
2509-Reporting and Transcripts- Grand Jury           631
2510-Reporting and Transcripts- Court              2,236         15,203
2529-Litigation Support                        1,746,940      1,232,211
2534-Research Services                                                9
2556-Graphics                                                        28
2557-Litigation Graphics                          18,828          5,694
2563-Interest Penalties-Government                 1,017            266
2591-Audiovisual Services                            405
     via Working Capital Fund
2598-Miscellaneous Litigation Expenses             4,896          4,090
2599-Other Services                                  291         12,159
3129-Non-Capitalized Automated Litigation                         9,056
     Support Equipment
Totals                                                   $5,488,528   $4,171,565
Source: Extracted from the Contractor’s electronic files of FY 2000 and FY 2001
        other direct costs used to generate the fiscal year end accounting
        schedules and summaries.

We reviewed selected transactions in the following four subobject codes:

         •   1157   -   Expert Witness Fees,
         •   2100   -   Travel and Transportation,
         •   2508   -   Reporting and Transcripts- Deposition, and
         •   2529   -   Litigation Support.

For FY 2000, these four subobject codes comprised 84 percent of the
transaction universe and 96 percent of the dollar universe. For FY 2001,
these four subobject codes comprised 89 percent of the transaction universe
and 97 percent of the dollar universe. We stratified the high dollar
transactions within these subobject codes and tested 100 percent of these


                                             8
transactions. 6 We reviewed other transactions based on a statistical
sample.

      For purposes of our review, we selected the highest dollar transaction
from each duplicated voucher for the statistical sample. This sample
consisted of no more than one transaction per voucher; therefore, there
were no duplicate vouchers. For FY 2000 our sample universe contained
2,060 vouchers comprised of 2,151 transactions totaling $5.3 million and for
FY 2001, 1,685 vouchers comprised of 1,781 transactions totaling $4 million.

      We reviewed 236 transactions totaling $2.1 million and 194
transactions totaling $1.6 million for FY 2000 and FY 2001, respectively. We
designed our review of the transactions in other direct costs to determine if
the selected FY 2000 and FY 2001 transactions included adequate support
against the following four attributes:

   •   Correct subobject code classification

   •   Correct Superfund/non-Superfund classification

   •   Correct dollar amount

   •   Proper approval

      For each of the transactions in our sample, we reviewed the payment
vouchers and supporting documentation. Our testing verified the following:
the correct subobject code was used to classify the cost; the case number
appearing on the documents matched the case number in the cumulative
Superfund database; the dollar amounts listed in the other direct costs
database matched the amounts on the supporting documentation; and the
proper approval was obtained on the vouchers paying the other direct costs.

       Our tests resulted in no exceptions in the transactions tested against
the four reviewed attributes for subobject codes 1157, 2508, and 2529. In
subobject code 2100 we did note that on two vouchers in each fiscal year
travel expenses claimed were not accurately split among Superfund cases,
non-Superfund cases, and administrative activities involved. Based on our
statistical sampling methodology and the results of our testing, we are 95
percent confident that exceptions, if any, do not exceed 3 percent of the
transaction universe for the subobject codes tested. The error rates we

       6
          The dollar values of the transactions in subobject code 2100 were not considered
high dollar transactions; therefore, these transactions were included in our randomly
selected sample of the transactions.



                                             9
identified fell below 3 percent and were not considered material.
Accordingly, we did not take exception to the errors or project the results to
the total universe of transactions in FY 2000 and FY 2001.

      Notwithstanding the results of the financial assessment, we did note
one issue that requires attention by the ENRD. We found that of the 204
travel authorizations reviewed 6 (voucher numbers A11443149, A11439717,
A09643338, A11601217, A12599816, and A12608872) were approved after
the traveler returned from travel, a finding we reported in previous OIG
audit reports.7 The authorization serves not only to initiate the obligation of
the costs but also to ensure that the traveler is protected by an official
authorization during periods of official travel. The ENRD needs to initiate a
procedure for ensuring that a record is made prior to official travel.

Overall Summary

      Based on the results of the audit, in our judgment the ENRD provided
an equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FY 2000 and FY 2001. With respect to
travel authorizations, the ENRD needs to ensure that all travelers receive
approved authorizations for official travel prior to initiating/commencing such
travel.

Recommendation

We recommend that the Assistant Attorney General, ENRD:

   1. Implement a procedure for ensuring that ENRD officials responsible for
      authorizing official travel for staff document approval of the official
      travel in advance of such travel.




       7
        OIG report number 96-12, May 1996, Superfund Activities in the Environmental
and Natural Resources Division for Fiscal Year 1994; and OIG report number 00-08, March
2000, Superfund Activities in the Environmental and Natural Resources Division for Fiscal
Year 1997.


                                            10
                                                              APPENDIX I

                       Objectives and Scope
       The purpose of the audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FY 2000 and FY 2001. To accomplish the overall objective of
the audit, we assessed whether: (1) the ENRD identified Superfund cases
based on appropriate criteria, (2) costs distributed to cases were limited to
costs reported in E&A Reports, and (3) adequate internal controls existed
over the recording of direct labor time to cases and the recording of other
direct charges to accounting records and Superfund cases.

       The audit focused on, but was not limited to, financial activities and
the procedures used by the ENRD to document, compile, and allocate direct
and indirect costs charged to Superfund cases from October 1, 1999 through
September 30, 2001. For our assessment of internal controls over the
compilation of direct labor charges, we relied on the results in OIG report
number 01-19, August 2001, Environmental and Natural Resources Division
Network Computer Security and Case Management System Internal Control
Audit.

     We conducted our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States.




                                       11
                                        APPENDIX II
         Cases in Sample Review
Case No.          Section
198-67-00110      Environmental Crimes
198-72-00101      Environmental Crimes
198-8-00188       Environmental Crimes
198-18-00133/1    Environmental Crimes
198-20-2          Environmental Crimes
90-11-3-290       Appellate
90-12-015         Appellate
90-11-3-1023      Appellate – Case folder missing
90-11-3-11510     Appellate
90-11-3-454       Appellate
33-33-1067        Land Acquisition
33-33-1088        Land Acquisition
33-46-434         Land Acquisition
33-41-128-09206   Land Acquisition
33-33-1125        Land Acquisition
90-1-23-09167     General Litigation
90-1-23-3260      General Litigation
90-7-1-687C       General Litigation
90-11-3-1412/2    General Litigation
90-11-6-05796/1   General Litigation
90-11-3-1486      Environmental Enforcement
90-11-3-1656/2    Environmental Enforcement
90-11-6-16364/1   Environmental Enforcement
90-11-3-07144     Environmental Enforcement
90-5-2-1-585/1    Environmental Enforcement
90-11-2-272       Environmental Defense
90-11-3-275       Environmental Defense
90-11-6-05518/3   Environmental Defense
90-11-6-40        Environmental Defense
90-11-6-16062     Environmental Defense




                     12
                              APPENDIX III

FY 2000 Accounting Schedules & Summaries




                   13
14
15
16
17
18
19
20
                               APPENDIX IV

FY 2001 Accounting Schedules & Summaries




                   21
22
23
24
25
26
27
28
                             APPENDIX V

ENRD Response To The Draft Report




               29
30
                                                       APPENDIX VI

             Analysis and Summary of Actions
                Necessary to Close Report
      The ENRD response to the draft audit report (Appendix V) included the
corrective action that the ENRD has completed to address the audit
recommendation. The ENRD agreed with our recommendation and provided
the specific actions it has taken to close the receommendation. Therefore,
we consider the report to be closed.

Recommendation Number

1.   Closed.




                                    31
